GR-70-98-027
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the Nassau County, New York Police Department
 
GR-70-98-027
December 1998
 
 
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an
audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented
Policing Services (COPS), to the Nassau County, New York Police Department (Nassau).
Nassau was awarded a total of $26,253,750 in COPS grants to hire 327 new sworn police
officers and redeploy 55.8 full-time-equivalent (FTE) sworn police officers to community
policing. The purpose of the additional officers is to enhance community policing efforts.

Nassau violated the following grant conditions.



The budgeted number of county-funded sworn-officer positions decreased from 3,340 in FY
      1995, the baseline year for Universal Hiring Program (UHP) grants, to 3,074 in FY 1998, a
      decrease of 266. Also, the actual number of county-funded sworn-officers on Nassau's
      police force decreased from 3,053 in May 1995 (the baseline month for UHP grants) to 2,835
      in May 1998, a decrease of 218. The decline in the number of both budgeted and actual
      county-funded officers demonstrates that Nassau supplanted local funds with COPS grant
      funds. Consequently, we question $3,048,000 in grant reimbursements and recommend that
      about $16,133,250 in AHEAD/UHP funds be put to a better use.




Nassau did not develop a plan to document the redeployment of 25.8 officer FTEs to
      community policing resulting from its 1995 Making Officer Redeployment Effective (MORE 95)
      grant. The MORE 95 redeployment condition requires grantees to develop a redeployment plan
      within 60 days of accepting the grant. As a result, we question the $599,224 Nassau
      received as reimbursement under the grant.




Nassau's actual costs for civilians hired under MORE 96 are less than those in the
      approved budget; therefore, we recommend that the grant be reduced by a total of  
      $78,297.


These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####